HHS/OIG, Audit -"Audit of Arizona's Medicaid Payments for Skilled Professional Medical Personnel
Reimbursed at the Enhanced Rate - October 1, 2002, Through September 30, 2003,"(A-09-05-00049)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Arizona's Medicaid Payments for Skilled Professional Medical Personnel Reimbursed
at the Enhanced Rate - October 1, 2002, Through September 30, 2003," (A-09-05-00049)
July 29, 2005
Complete
Text of Report is available in PDF format (391 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the Arizona Health Care Cost Containment System (Arizona) properly
claimed Federal Medicaid funding at the enhanced rate for skilled professional medical personnel for
the period October 1, 2002, through September 30, 2003.  Arizona generally complied with Federal
regulations when claiming Federal Medicaid funding at the enhanced rate for skilled professional medical
personnel.  We noted that Arizona claimed a small amount of overhead costs that was not eligible
for reimbursement at the enhanced rate.  Arizonas controls did not prevent overhead costs from
being claimed for reimbursement at the enhanced rate.  We recommended that Arizona strengthen
controls to ensure that overhead costs are not claimed for Federal reimbursement at the enhanced rate.  Arizona
officials agreed with our finding and recommendation.